Interagency Review of the Export Licensing Processes for Dual-Use Commodities and Munitions
Department of Defense
Interagency Review of the Export Licensing Processes for Dual-Use Commodities and Munitions -- Report No. 99-187
Date: June 18, 1999
Introduction.  The Inspectors General of the Departments of Commerce, Defense, Energy, State, and the Treasury and the Central Intelligence Agency have completed an interagency review of the export licensing processes for dual-use commodities (goods and technologies that have military and commercial applications) and munitions. The review was undertaken as a joint project requested by Senator Fred Thompson, Chairman, Senate Governmental Affairs Committee, in his August 26, 1998, letter to the six Inspectors General.
Background. The primary legislative authority for controlling the export of dual-use commodities is the Export Administration Act of 1979, as amended. The act last expired in 1994, and its provisions are continued by Executive Order under the authority of the International Emergency Economic Powers Act. The export of goods and technologies that have only military use is controlled under the authority of the Arms Export Control Act.
The dual-use export licensing process is managed and enforced by the Department of Commerce, and the munitions export licensing process is managed by the Department of State. The Departments of Defense and Energy review export license applications and make recommendations to Commerce and State. The Central Intelligence Agency and the U.S. Customs Service (Department of the Treasury) provide relevant information to Commerce and State to assist them in the license review process. Customs also enforces licensing requirements on all U.S. export shipments except outbound mail, which is handled by the U.S. Postal Service. In FY 1998, the Department of Commerce received 10,696 dual-use export license applications, and the Department of State received 44,212 munitions export license applications.
Objectives.  The overall objective of the interagency review was to evaluate the export licensing processes for dual-use commodities and munitions to determine whether current practices and procedures were consistent with established national security and foreign policy objectives. This report is organized around seven areas that update and expand on a previous interagency Inspectors General report, "The Federal Government's Export Licensing Processes for Munitions and Dual-Use Commodities," September 1993, and address the 14 questions posed by Senator Thompson in his August 1998 letter to the six Inspectors General.
Review Results.
Statutes and Executive Orders.  In general, the provisions of the Export Administration Act, as clarified by Executive Order 12981, "Administration of Export Controls," are consistent and unambiguous. However, Commerce and Defense OIGs determined that the dual-use licensing process would be best served if the Export Administration Act were reenacted. Overall, the Arms Export Control Act is also consistent and unambiguous. Executive Order 12981 is generally consistent with the Export Administration Act. However, the Executive Order needs modification to compensate for the merger of the Arms Control and Disarmament Agency with the Department of State and to clarify representation at the Advisory Committee on Export Policy. In addition, policy and regulations regarding the export licensing requirements for items and information "deemed to be exports" needs clarification, and the exporter appeals process should be formalized.
Export License Review Processes.  The Departments of Commerce, Defense, Energy, and State, Offices of the Inspectors General, were satisfied with the overall referral of dual-use license applications and the interagency dispute resolution process. Officials from those Departments were generally satisfied with the 30-day time limit for agency reviews under Executive Order 12981; however, not every agency could meet that limit, and several Defense Components and the Central Intelligence Agency indicated they could benefit from additional time to review dual-use export license applications. The Departments of Defense and State, Offices of the Inspectors General, were satisfied with the referral of munitions licenses; however, the Department of Commerce, Office of the Inspector General, believed that the inclusion of the Department of Commerce in the munitions referral process should be considered. The Commerce commodity classification process could benefit from additional input on munitions-related items from the Departments of Defense and State. Also, Energy officials believed a more formal review process for munitions was needed, as the officials were unclear on Energy's role in the current process.
Cumulative Effect of Multiple Exports.  The U.S. Government lacked an overall mechanism for conducting cumulative effect analysis. However, some of the agencies* involved in the export licensing process performed limited cumulative effect analyses, with the degree of analyses performed varying across the agencies. The Departments of Commerce, Defense, Energy, and State, Offices of the Inspectors General, concluded that additional cumulative effect analyses would benefit the license application review process.
Information Management.  The Departments of Commerce, Defense, and State, Offices of the Inspectors General, each questioned the adequacy of its Department's export licensing automated information systems in regard to the completeness and accuracy of certain data, system interfaces, or modernization efforts. The Department of Energy, Office of the Inspector General, did not identify any significant issues. With the exception of the Department of Defense, the audit trails for the respective export licensing automated systems were found to be adequate. Defense procedures did not ensure that final Defense positions were accurately recorded, and the Central Intelligence Agency reported unsatisfactory documentation of end-user checks on munitions license applications.
Guidance, Training, and Undue Pressure.  Defense, Energy, and State licensing officials had adequate guidance to perform their mission; however, Department of Commerce licensing officers and Central Intelligence Agency licensing analysts could benefit from additional guidance. On-the-job training was the primary training available at the Departments of Commerce, Defense, Energy, and State for licensing officers. While the Department of Energy, Office of the Inspector General, concluded that the Department of Energy had an adequate training program, the Departments of Commerce, Defense, and State, Offices of the Inspectors General, identified a need for the establishment of a standardized training program. With very few exceptions, the Departments of Commerce and Defense licensing officials reported they were not improperly pressured to change recommendations on license applications. Energy and State export licensing officials reported they were not pressured regarding their recommendations.
Monitoring Compliance and End-Use Checks.  The Department of Commerce did not adequately monitor reports from exporters on shipments made against licenses, and the Department of State's Blue Lantern program could be improved. The Departments of Commerce and State still use foreign nationals to conduct an unknown number of end-use checks; however, the Department of Commerce, Office of the Inspector General, found that most end-use checks were being conducted by U.S. and Foreign Commercial Service officers or Department of Commerce enforcement agents, and the Department of State, Office of the Inspector General, concluded it may be appropriate to use foreign nationals to do the checks under certain conditions.
Export Enforcement.  The Department of the Treasury, Office of the Inspector General, determined that although U.S. Customs Service export enforcement efforts have produced results, the U.S. Customs Service is hindered by current statutory and regulatory reporting provisions for exporters and carriers. The Department of the Treasury, Office of the Inspector General, also identified operational weaknesses in the U.S. Customs Service's export enforcement efforts. Details of the Inspector General's findings are contained in Volume III of this report. The U.S. Postal Service's export enforcement efforts are also addressed in Volume III.
Recommendations, Management Comments, and Inspector General Responses. The participating Offices of the Inspectors General made specific recommendations relevant to their own agencies. Recommendations and management comments are included in the separate reports issued by each office, which are in Appendix C (Commerce), Appendix D (Defense), Appendix E (Energy), Appendix F (State), Appendix G (Treasury), and Appendix H (Central Intelligence Agency). Appendixes D, E, and F are in Volume II of this report. Appendixes G and H are in Volume III of this report. Because of time constraints, management was not asked to respond to this interagency report. Management comments discussed in this report are those provided in response to the individual reports of the participating Offices of the Inspectors General.
__________________
*Agencies in the report refer to the Departments of Commerce, Defense, Energy, State, and the Treasury and the Central Intelligence Agency.
Any comments or suggestions should be sent to: auditnet@dodig.mil